                                      News From
                            The Office of Inspector General
                        Corporation For National And Community Service




YMCA of Greater New York Pays $534,000 to Settle AmeriCorps Fraud Case


WASHINGTON (June 14, 2007) – Inspector General Gerald Walpin announced today that the
YMCA of Greater New York has agreed to repay the Federal Government $534,000 in misapplied
funds and damages stemming from abuses by officials of its former AmeriCorps School Success
Program.

An investigation and audit by the Office of Inspector General of the Corporation for National and
Community Service, the Federal agency that funds AmeriCorps, uncovered widespread fraud and
grant violations in the YMCA program, which was designed to provide tutoring help to at-risk
students in New York City’s elementary schools.

Michael J. Garcia, United States Attorney for the Southern District of New York, said that YMCA
officials, in agreeing to settle the civil charges, did not admit to any wrongdoing or liability.

The OIG found that, from 2000-2005, YMCA officials falsified timesheets and inflated the number
of service hours performed by AmeriCorps members, allowing the school tutors to obtain
Federally funded Education Awards to which they were not entitled. In some cases, YMCA
officials directed their AmeriCorps members to sign blank timesheets and then filled in the forms
with inflated hours, in many cases doubling the actual number of hours served.

AmeriCorps members can earn an award of $4,725, to be paid to their college or the lender of
their higher education loan, for completing 1,700 hours of service in a year.

The fraud also allowed unqualified members, including several who had left the program before
completing their service terms, to earn Federally funded AmeriCorps living allowances to which
they were not entitled. Officials further allowed members to serve in activities, including a summer
school program, not covered by their grant.

 “This result, recovering more than half a million dollars of Federal funds, demonstrates the value
of having an Inspector General and of conducting audits and investigations,” said Walpin. “And
this case proves that even a nonprofit agency with a good reputation can fail in its duty to
supervise its officials and prevent misuse of Federal funds.”

The $534,000 penalty represents a doubling of the actual loss to the Government. The YMCA
was charged with violations of the False Claims Act. Such violations are punishable by at least a
doubling of the amount proven to have been misapplied.

The YMCA official who supervised the AmeriCorps program resigned early in the investigation
and the New York State Commission for National and Community Service, the state agency that
sub-grants Corporation funds to local nonprofit groups, froze additional funding for the School
Success Program in 2005.

The case was investigated by OIG Senior Special Agent Jeffrey Morales and Special Agent
Wendy Wingers. OIG Audit Manager Stuart Axenfeld supervised the audit.
